<html>
<title> - S. Hrg. 109-137 LIVING STRONGER, EARNING LONGER: REDEFINING RETIREMENT IN THE 21ST CENTURY WORKPLACE</title>
<body><pre>[Senate Hearing 109-137]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 109-137

                    LIVING STRONGER, EARNING LONGER:
          REDEFINING RETIREMENT IN THE 21ST CENTURY WORKPLACE

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             APRIL 27, 2005

                               __________

                            Serial No. 109-6

         Printed for the use of the Special Committee on Aging





                 U.S. GOVERNMENT PRINTING OFFICE

23-281                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                       SPECIAL COMMITTEE ON AGING

                     GORDON SMITH, Oregon, Chairman
RICHARD SHELBY, Alabama              HERB KOHL, Wisconsin
SUSAN COLLINS, Maine                 JAMES M. JEFFORDS, Vermont
JAMES M. TALENT, Missouri            RUSSELL D. FEINGOLD, Wisconsin
ELIZABETH DOLE, North Carolina       RON WYDEN, Oregon
MEL MARTINEZ, Florida                BLANCHE L. LINCOLN, Arkansas
LARRY E. CRAIG, Idaho                EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
CONRAD BURNS, Montana                BILL NELSON, Florida
LAMAR ALEXANDER, Tennessee           HILLARY RODHAM CLINTON, New York
JIM DEMINT, South Carolina
                    Catherine Finley, Staff Director
               Julie Cohen, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Gordon Smith........................     1
Opening Statement of Senator Herb Kohl...........................     3

                                Panel I

Frank Robinson, manager, Washington Nationals, Washington, DC....     4
Barbara D. Bovbjerg, director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office, Washington, DC    11

                                Panel II

Kathlyn Peterson, medical and surgical transcriptionist, SSM 
  Health Care, Madison, WI.......................................    36
Laurie Barr, assistant director of Human Resources, Oregon Health 
  & Science University, Portland, OR.............................    40
Douglas Holbrook, vice president and secretary/treasurer, AARP 
  Board of Directors, Washington, DC.............................    44
Valerie Paganelli, senior retirement consultant, Watson Wyatt 
  Worldwide, Seattle, WA.........................................    55

                                APPENDIX

Prepared Statement of Senator Larry Craig........................    67
Information submitted by AARP....................................    68

                                 (iii)




  LIVING STRONGER, EARNING LONGER: REDEFINING RETIREMENT IN THE 21ST 
                           CENTURY WORKPLACE

                              ----------                              --



                       WEDNESDAY, APRIL 27, 2005

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee convened, pursuant to notice, at 10:05 a.m., 
in room G50, Dirksen Senate Office Building, Hon. Gordon H. 
Smith (chairman of the committee) presiding.
    Present: Senators Smith, Kohl, Lincoln, and Carper.

     OPENING STATEMENT OF SENATOR GORDON H. SMITH, CHAIRMAN

    The Chairman. Thank you all for coming today to this very 
special hearing of the Aging Committee. The title of it is 
``Living Stronger, Earning Longer: Redefining Retirement in the 
21st Century Workplace.''
    I would like to thank Senator Kohl for arranging today's 
hearing on our aging workforce and how retirement may need to 
be redesigned to meet the needs of both older workers and their 
employers. I can't think of a more important topic.
    We have three excellent panels of witnesses today and I 
look forward to a productive discussion with them.
    As the baby boom generation approaches retirement, 
significant changes will occur with respect to the makeup of 
the American workforce. According to the Census Bureau, the 
portion of the American population that is age 65 and older 
will increase from 12.3 percent in 2002 to 18.2 percent in 
2025. Furthermore, the number of Americans between the age of 
55 and 64 will grow by about 11 million people from 2005 to 
2025, while the number of Americans between the ages of 25 and 
54, the age group with the highest labor force participation, 
will only increase by about five million during the same 
period.
    These trends may result in future labor shortages, which 
could hurt both the competitiveness of many American businesses 
and our economic growth as a whole. Furthermore, with the 
number of baby boomers that will be retiring shortly, we also 
must be concerned with the brain drain that may occur. Our 
workforce will be losing some of the most experienced workers, 
many of whom have skills that simply are not replaceable.
    The effects of these trends can be lessened if older 
workers decide to stay in the workforce longer, and it appears 
from recent data that this is occurring. For example, according 
to the Census Bureau, from 1995 to 2004, the percentage of 62- 
to 64-year-old men employed in March of each year rose from 42 
percent to 48 percent. There was even more growth with respect 
to women.
    In line with this trend of working longer, a 2004 AARP 
survey found that 79 percent of baby boomers plan to work in 
some capacity during their retirement years. There are a number 
of reasons why older workers decide to stay in the workforce 
longer. According to a 2005 AARP survey of individuals over age 
50 and older, the need for money was a major reason for working 
in retirement. As the committee discussed earlier this month 
during its hearing on savings in the context of employer-
sponsored retirement plans, the personal savings rate in the 
United States has declined dramatically over the last two 
decades. Unfortunately, many Americans have not saved enough to 
retire without continuing to work.
    Beyond financial reasons, the AARP survey also found that 
the desire to stay mentally active and the desire to stay 
physically active were also major reasons for working in 
retirement. As Americans are generally living longer and 
healthier lives, many are simply just not ready to fully retire 
at the traditional retirement age.
    In response to these trends, many employers have already 
implemented some of the best practices. For example, many 
employers offer elder care benefits and provide flexible work 
arrangements. One retail employer allows employees to work at 
their Florida stores during the winter and their stores in 
other areas of the country during the summer.
    Another solution that some employers have explored is 
phased retirement. Instead of fully retiring at a particular 
age, an individual phases into retirement or simply leaves the 
workforce gradually. For example, an employee may transition 
from a full-time to a part-time position.
    According to the 2005 AARP survey of all the working 
respondents, 38 percent indicated that they would be interested 
in participating in phased retirement. Of those workers who 
expressed interest in phased retirement, 78 percent expect that 
the availability of such a plan would encourage them to work 
past their expected retirement age. Therefore, implementing a 
phased retirement program may assist some employers in 
retaining their older workers.
    I want to thank all of our witnesses here today for coming 
to discuss this important issue and I look forward to their 
testimony. It is a particular honor for me as the chairman to 
welcome Frank Robinson. I told him earlier that as a boy in 
this town, I was an avid Senators fan and used to watch he and 
Brooks Robinson put away the Senators in seemingly just a few 
innings because he could hit and field like few who have ever 
taken the baseball diamond, and it is a great privilege to meet 
him here today.
    Before we hear his testimony, I will turn the microphone 
over to my colleague, Senator Herb Kohl from the State of 
Wisconsin.

             OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. I thank you very much, Senator Smith, and we 
welcome everyone to this hearing on the subject of the 
increasing number of older Americans who are working longer.
    We also want to thank all of our witnesses here today. Mr. 
Robinson, we especially want to thank you for coming today 
because we know you have a game this afternoon, and I would 
imagine that the Phillies manager, Charlie Manuel, who you are 
playing this afternoon, probably wishes you would just go ahead 
and retire. [Laughter.]
    During the next few decades, the number of Americans over 
age 65 will increase from 12 percent of our population to 
almost 20 percent. This demographic wave will require all of us 
to adjust our perceptions of what retirement means in the 21st 
century.
    Fortunately, today's generation of seniors are living 
longer, are healthier, and are staying active and productive in 
their communities. They share an astonishing history, building 
our economy into the strongest in the world, fighting for the 
freedoms we enjoy today, raising their families, and fostering 
their communities. Seniors are indeed a treasure trove of 
knowledge, experience, and wisdom. They are an invaluable 
resource that we would be foolish not to make the most of.
    Today, older Americans not only have the ability to work 
longer, but many also have the desire. Health has been on a 
steady incline. Jobs are less physically demanding. According 
to a recent survey by AARP, 80 percent of baby boomers today 
expect to work into their retirement years. Today, only 13 
percent of people over 65 are in the workforce, so this is a 
remarkable demographic shift.
    Older Americans are choosing to work for many reasons. For 
example, 74-year-old Eugene Schuliss from Milwaukee is working 
part-time because he says it keeps his mind sharp and gives him 
a good balance of work and free time. Arlene Roos, an 85-year-
old factory worker from Oconomowoc, WI shows up early and works 
overtime because it keeps her active every day. Ella Clark 
Nuite of Georgia, who is 100 years old and was recently honored 
by Experience Works as America's Outstanding Older Worker, 
still runs her small business and believes that work keeps her 
healthier.
    Whatever the reason people decide to stay in a job, it is 
time to change the way we think about retirement. A one-size-
fits-all approach will no longer match the very different plans 
that seniors and baby boomers have for their later years.
    Rethinking retirement is also vital to our nation's 
economic future. With more Americans retiring and fewer young 
workers to replace them, companies face a labor shortage. We 
could face a gap of about 18 million workers by 2020. In the 
future, our economy will increasingly depend on keeping 
experienced employees in the workforce. Some businesses have 
already begun to recognize the talent of our nation's seniors. 
We need to encourage their efforts and take a close look at 
laws that make it difficult for them to attract and keep older 
workers.
    For example, we could reexamine pension laws to find ways 
to encourage what is called phased retirement, a gradual 
transition from full-time work to full retirement. We could 
also make job assistance and training programs more widely 
available to older workers. A recent study found that companies 
offering elder care programs helped keep people in the 
workforce.
    We look forward to learning more about these options today 
and working with our colleagues in the coming months to 
consider ideas that would help.
    Today, we have two examples of seniors who continue to 
contribute in their mature years. Frank Robinson brings 50-plus 
years of work experience to his profession and he continues to 
have a positive impact on the players he works with. Kathlyn 
Peterson still uses her lifelong experience in the medical 
profession to benefit hundreds of patients. They are just two 
examples of how the meaning of growing older is changing in our 
country.
    Older workers have a lot to offer to businesses, their 
communities, and their country. Today, older Americans are 
healthier, more active, and many are willing and able to 
continue to make contributions to the workplace and to their 
community, so we must incorporate this new mindset into our 
national culture and develop policies that reflect this 
reality. Our seniors deserve it and our economic future may 
well depend upon it.
    So we will go now to our first panelist, Frank Robinson, 
and we are all pleased to welcome you here, Mr. Robinson.
    For most of us, Frank Robinson needs no introduction. Frank 
Robinson was one of our country's most beloved and renowned 
major league baseball players. After earning the honor of 
Rookie of the Year in 1956, he went on to an incredible 20-year 
playing career. He was first to be named Most Valuable Player 
in both leagues, and in 1982, he was elected to the Baseball 
Hall of Fame. In 1975, he became the major leagues' first 
African American manager, and today, he is still a force to be 
reckoned with. He is today the manager of Washington's new 
hometown baseball team, the Nationals.
    So, Mr. Robinson, we thank you for taking the time to join 
us today and we invite you to speak as you wish. Mr. Robinson.

  STATEMENT OF FRANK ROBINSON, MANAGER, WASHINGTON NATIONALS, 
                         WASHINGTON, DC

    Mr. Robinson. Mr. Chairman, Senator Kohl, I didn't come 
here, and I didn't want to make any corrections, but I have to 
correct you. It was 21 years. [Laughter.]
    Accepted.
    The Chairman. Without objection, it is accepted. 
[Laughter.]
    Mr. Robinson. Thank you for having me here today. It is a 
pleasure to be here and speak on this subject. I think it is a 
very important subject that should be taken into consideration 
and seriously by people out here in the workplace.
    I will just give you a little background on my life and 
then I will answer questions afterwards. I was born in Texas 
and I was raised in Oakland, CA. I was brought up in a single 
home. My mother was the only adult in the house. As a young man 
growing up, she gave me values that I live by today. I work 
hard, don't expect anything for nothing, anything worth having 
is worth working for, and those are the values that I live by 
today.
    I grew up in a neighborhood that I could have gone either 
way. I could have had a 20-year sentence in San Quentin or 
someplace like that, or I could have a 21-year career in 
baseball, and I chose baseball. It was a very easy choice for 
me as a young man because I didn't want to ever do anything to 
embarrass my mother or bring embarrassment to my family, so I 
did that. She lived by values and she never laid a hand on me 
as a kid. But the looks that I got, I knew what it was.
    Early on in my young adult life, my young life, I knew I 
wanted to be a baseball player. As a matter of fact, I told my 
counselor in high school that I was going to sign a major 
league contract for $75,000. I eventually signed a minor league 
contract for $3,500. But a love of baseball just was in my 
blood from the beginning. I played other sports in high school 
and sandlot baseball, basketball, football, but baseball was my 
love.
    I was in the minor leagues for 2\1/2\ years in the South 
and my job was to work as quickly as I could to get to the 
major leagues. I made it in 2\1/2\ years. I had the opportunity 
to make it in a year-and-a-half, but I had a very bad injury to 
my shoulder that set me back. That bothered me my entire 
career, but I overcame that to make it to Cincinnati in 1956.
    My goal at the beginning was to play five years. I didn't 
think anything would last for much longer than that in the 
major leagues. The average at that time was, like, three to 
four years. Then when I made five years, I said, why not ten? 
Ten, why not 15? Fifteen, why not 20? I made 21.
    As I was closing in on the end of my career, I decided that 
I wanted to go into management. But something was brought to my 
mind very strongly in 1965, the winter of 1965, when I was 
traded from Cincinnati to Baltimore, and the reason given by 
the owner and general manager of the Cincinnati Reds, Bill 
DeWitt, was I was an old 30, so I had to move on. My career was 
coming to an end. Well, I played, I think, 11 more years after 
that and had some production.
    But I knew that I was winding down and I wanted to stay in 
baseball, so I started going to winter ball as I was playing to 
manage down there to gain experience. The one thing that 
African Americans heard the most when it came to not being able 
to manage in the major leagues was that you didn't have the 
experience, so I wanted to take that out of play. So I went 
down to Puerto Rico for six straight winters. My family made 
the adjustment because my wife said to me, ``Frank, whatever 
you have to do to be successful and continue your career, the 
family will adjust to you,'' so that made it much easier for me 
to put that time in down there, and it was well spent, because 
when I became a manager in 1975, it really helped me as far as 
my managing.
    The first year, I made a lot of mistakes. I thought I was 
ready, but it takes a while. You learn on the job. You make 
adjustments. I spent 2\1/2\ years at Cleveland and I was out of 
a job, and the most devastating thing in baseball is to be 
traded or released or fired the first time. I didn't leave the 
house for a week. But then after that, I said, hey, what is 
going on? Get your life back together. You want to stay in 
baseball, make a couple of calls.
    But my career has continued because I want to stay in 
baseball. I enjoy being in baseball. I feel like I have 
something to give to baseball, and as long as my health is 
good, my energy level is up, and someone feels like I can 
contribute to the game of baseball, I will be in baseball.
    When the day comes and I am not in baseball, I don't feel 
like I have the health or the energy to play, I will move on to 
something else. People say, how do you feel at 40? How did you 
feel at 40? How did you feel at 50? How do you feel when you 
turn 60? I said, I don't know. I feel the same as I have always 
felt. I feel good. I want to do things.
    My mind is nowhere near retiring. I don't think retiring is 
good for individuals. It is not for me. I am a doer. I am a 
goer. I enjoy being involved in things, and I think if a 
country has a mindset--we have been taught, I think, learned to 
work toward retiring at a certain age. You work to that age, 
then you retire and collect your benefits.
    Well, times have changed. Individuals have changed. I don't 
think you can throw a blanket over the entire society and say 
you should retire at 50, or 60, or 70, or whatever because 
there are individuals out there that have a lot of things and a 
lot of knowledge to give even beyond retirement age.
    As long as--I have changed as a manager, for instance. 
People have said I have become soft. Well, I haven't become 
soft. What I have been able to do over the years is make 
adjustments in this game to continue to be successful and to 
keep up with the youngsters, the crowd. I draw my energy from 
my players, and the players that I have here and have had in 
Montreal for three years and here now are the reason why I am 
really still managing in baseball today, because 11 years 
before I got back into the game, when I retired at Baltimore, I 
was through with managing. I felt like I had my due. I had my 
say. I had my chances. It was time for others to have their 
opportunity.
    But when Commissioner Selig asked me if I would manage the 
Montreal Expos for one year, because remember, the contraction 
thing was in vogue then, I said, for one year, I could do it. 
My energy level is up. I feel good. I am healthy. I am the man 
for the job. One year is turning into four and I still feel 
like I am the man for the job. The energy level is up. The 
health is good.
    Managing is a lot of stress. It is a lot of stress. But I 
feel like if you are allowed to just leave that stress at the 
ballpark and you go home to your family, you can relax and go 
to bed and get a certain amount of hours of sleep, you can 
overcome that stress and the strain. You have to let it out. 
You can't let it buildup. I learned that when I was a player, 
when I went oh-for-four or we lost a ballgame, I struck out in 
the ninth inning with the bases loaded, my team lost. I left 
that ballgame and left that stress and strain and that failure 
at the ballpark and I came back each day feeling like I was 
going to be successful.
    I was very fortunate to be successful, I think a little bit 
more than I failed, and I have a lot of people to thank for 
that because I had people that gave me good values at the 
beginning, a coach in Oakland, CA, gave me my foundation as a 
player and my knowledge as a manager that I draw from today and 
I thank them every day that I have been in this game of 
baseball. He is no longer living now, but I still thank him. 
Jackie Robinson, he said, he hoped he would see an African 
American in the dugouts before he passed away. That didn't 
happen, but I was very proud on the day that I did become the 
first African American manager.
    I don't know if I will retire at any time. I have told 
people, as long as someone wants me to be in baseball and my 
energy level is up, they are probably going to have to come get 
me and put me in that pine box and say, ``Goodbye, Frank. It is 
time to go.'' But until that day comes, and I enjoy this game 
and have something to give--I don't want to be given anything. 
I feel like if I have something to give, if someone wants to 
draw from my knowledge of the years and the experience and the 
know-how and the bumps and the hills you have to climb and 
overcome over the course of time, I will be there to do that. I 
try to pass that on to younger constituents.
    I try to pass that on to young players, that age is just a 
number. What you do and how you feel and how you conduct and 
carry on your life is the most important thing, and don't let 
anyone ever tell you you can't do something because the will to 
do something is stronger than the physical ability to be able 
to do it.
    I was not a great player coming out of high school. As a 
matter of fact, my mother wanted me to go to college and the 
money was there. She had saved it. She had worked hard to save 
the money for me to go to college. When I graduated from high 
school, I said, ``Mom, it would be a waste of your money for me 
to go to college because I don't think I would be a good 
student. I want to play baseball.'' She said, ``Frank, if that 
is what you want to do, go do it.'' She was always very 
supportive of me and I will never, never forget what she did 
for me as a young man to set me up to where I am today, and I 
believe that is why I am where I am today.
    Doing things in this game today and outside of this game is 
very important to me, and I think with this committee, I think 
this is one of the nicest things or nicest committees, because 
you know, I have sat at home and watched the other committees 
and it wasn't as much fun watching those committees, real 
people here. I am sitting here and even being grilled. 
[Laughter.]
    But I think that this committee could just convey and get 
across to the workplace out there, the people that hire and 
fire, that a number doesn't mean someone cannot be productive. 
In this age, we are living longer and in better health because 
of all the advanced medicine today, operations today. For 
instance, I had a knee operation in 1967 and I was out for 
about six months. They have that operation now and you are 
playing in three days, so that is how much the medicine kind of 
has advanced. Also, when I had my bad shoulder, operations were 
taboo because we felt if you had an operation, in those days, 
your career was over. But nowadays, they go in and fix it and 
you are even stronger.
    What I am trying to say, I think it is very, very important 
for this committee to get behind a workforce in the world today 
and get the people that are hiring to understand that senior 
citizens still can be of value in the workplace and they can 
still contribute to our society. Don't look at them being 65, 
70 years old or younger.
    I would say to our constituents and the public, don't give 
in to age. Don't look for something to be given to you. If you 
feel like you want to work beyond retirement, do it. Do it. 
Don't take no for an answer. It is like when you come out of 
high school or college and you go to be interviewed for a job 
and they say, ``How much experience do you have?'' You say, 
``None.'' They say, ``Well, when you have some experience, come 
back.'' Well, if someone never hires you, how are you going to 
gain experience? So why not take advantage of the experience 
that people gain over the years?
    I think that baseball fell into that rut of youth, computer 
age, see you later, you old senior citizens. You can't work a 
computer, so you can't keep up with these young people. You 
don't know what is going on in baseball. You can't maneuver the 
numbers around and that computer says so and so is 10 for 20 
against this pitcher. You don't know what that means.
    But I do know one thing. I don't have to look at that 
computer. I know if a hitter can have success against certain 
pitchers and pitchers against certain hitters. I don't have to 
be able to work that computer. But I know I have gained a lot 
of experience, a lot of knowledge that I have been able to 
bridge the gap from 1975, 1956 to now, by adjusting to the 
players, adjusting to the lifestyle and understanding what you 
have to do today to be successful. That is what I have done 
over the years, and I hope that we can get that as this 
committee goes on out into the workplace and get people to 
understand age is only a number.
    Thank you for having me here today.
    Senator Kohl. That was a great, great statement, Mr. 
Robinson. As prominent as you are, you are a great testimonial 
to the qualities and excellence that people who are older and 
experienced can bring to the workforce. It is just great to 
have you here and touching on all these points that are so 
relevant and so important as we confront our situation in 
America of people getting older and wanting to be productive 
and how important it is that we allow them to do that. You are 
a living example of it all at its very best.
    I am not going to grill you. [Laughter.]
    Senator Kohl. What you said, you said it so well and you 
say it all and you say it so correctly. It is just a pleasure 
and a privilege to have you here today.
    Senator Smith.
    The Chairman. Thank you, Senator Kohl. Coach, I was very 
gratified you expressed that you felt at home here at the 
Senate and we want you to feel at home here because you are 
performing by your presence and with your words a great service 
to an America that is aging. You are a living embodiment that 
age is a number. How old you are is how you feel.
    I was also very touched by your many references to your 
mother. As we approach Mother's Day in the coming weeks, your 
words cause me to reflect upon my own youth in this town. When 
I was a teenager, I would set an alarm every morning and my 
mother, I am sure, would hear it go off. But if she didn't hear 
me get up, she would call down to the basement, where my room 
was, ``Get up, Gordy, or you won't amount to a hill of beans.''
    When I was elected to the U.S. Senate, my mother was then 
still alive and I moved in with her before I could move my 
family back to Washington after the school year, so I spent 9 
months living with her. One morning my alarm went off and she 
apparently didn't hear me up and she opened the door and said, 
``Gordy, get up or you won't amount to a hill of beans.'' 
[Laughter.]
    So I am still working on it, and obviously you are showing 
an example of how we can all amount to more than a hill of 
beans. I just can't thank you enough for your life, your 
service, and the great example.
    I suppose the only question I would have is do the players, 
the young players, most of whom I assume are in their 20's, do 
you think it is of value to them to have an adult in the 
dugout? [Laughter.]
    Mr. Robinson. Yes, it is.
    The Chairman. Do they look at you with some authority, I 
suppose, that really does come with time in the batter's box 
and in the dugout of managing?
    Mr. Robinson. I think a lot of them are awed by it and they 
stand off and they are afraid to approach me at times. But 
others draw from it and take advantage of it. I am very happy 
when they do that because I can talk baseball all night long. I 
can talk about baseball. I don't force myself or my knowledge 
and what I know on anyone, but if you reach out to me, I am 
very happy to share it with you. There comes a time sometimes, 
though, I have to, as a manager, kind of force my will on 
certain players, but not too often. I am just happy to be able 
to pass on what I have learned, and I try to tell them to this 
extent.
    I had bumps and I had falls and I had setbacks in my life 
and my career and I am just trying to give you this knowledge 
and this understanding of the game and life itself so you can 
maybe not have some of those bumps and some of those falls and 
setbacks, and maybe you will have a little smoother career and 
a little longer career, and this is what I pass on, not because 
I am trying to show you how smart I am or anything like that.
    The Chairman. As the manager of the Nationals, do you hire 
other coaches that are your contemporaries or who have the 
wisdom of years and do you encourage them to stay in the employ 
of the Nationals past retirement?
    Mr. Robinson. Yes, I do. As a matter of fact, one of my 
players said, ``You know, Frank, you have a senior citizens' 
coaching staff here.'' I said, ``No, I don't. I have one down 
under 40.'' [Laughter.]
    But I try to do that for a reason, because of the 
experience and the knowledge that the individuals have, and I 
try to bring that on board because I think it is important over 
a 162-game schedule. No matter how many times you have to tell 
an individual something, sooner or later, it will click, 
believe me. It may not be this year. It may not be next year. 
But maybe five years down the road, it may click.
    For instance, I had a young man, 20 years old, Dennis 
Eckersley, I brought him up to the major leagues with me. I had 
to fight to get him on the staff, on the ball club my first 
year. It was about September, he had a shutout, eight-to-
nothing in Milwaukee against the Brewers, and I went out and 
took him out of the ballgame after eight innings and he was 
livid. He was livid. So the next day, I talked to him about it 
because a very good friend of mine said, don't make any 
decision, don't have any discussions when someone is upset or 
mad, and that's very good advice. So I talked to him the next 
day and I explained it to him. I said, you're going to have a 
long, long career. You're going to be around playing when I'm 
gone. Well, I'm still around and he's retired, though---- 
[Laughter.]
    But, I said, you only have one of those things on your 
shoulder right there, that right arm, one of them, and I am not 
going to misuse you or abuse you now. I said, ``You will know 
what I did for you later down the road sometime.''
    Five years later, he is with the Boston Red Sox and he came 
up to me one day and said, ``Frank, thank you.'' I said, 
``Thank me for what?'' He said, ``For what you did for me when 
I was a youngster back in Cleveland, taking care of me, 
watching out for my career. I appreciate that now.'' So it 
comes about. It gets through sooner or later.
    The Chairman. That is a terrific story.
    I know Senator Kohl employs many people in the other part 
of his life, and so do I in a food processing plant out in 
Oregon, and many of my managers have gray hair and they still 
perform past retirement. I particularly value that. I wonder if 
you have seen, like I have, that often when people do retire at 
the traditional age and get the gold watch, they go home and 
they quickly pass away because--maybe it is some correlation, 
maybe not, but it does seem that having a reason to get out of 
bed and a purpose to go to work often extends life. Have you 
had that experience?
    Mr. Robinson. Oh, yes, I do. I have had it, and this is the 
reason why I keep going, because friends of mine are all the 
time after me, why don't you retire? You have done almost 
everything there is to do and accomplish in the game of 
baseball. I said, I am not the retiring kind because I don't 
feel like I will have the quality of life sitting around the 
house, going to play golf on occasions, and just trying to find 
things to do.
    For instance, it was kind of really brought home to me in a 
real strong way. A very good friend of mine that I grew up 
with, Avada Pinson, played for about 18 years in the major 
leagues and he coached after that for a number of years. He was 
out of baseball at 57 and he was working with the young people 
in Oakland, CA, and he had come from a little league ballpark 
from working with the kids on a very nice afternoon. He went 
home and sat in his La-Z-Boy chair, and that is where they 
found him three days later and he had passed away, at 57.
    The Chairman. Wow.
    Mr. Robinson. That drove it home to me, that to stay active 
is the best way, and the quality of life. I am not a big buff 
of working out and running and doing things like that because I 
did that for 20-some years. Now I will look at the treadmill 
and I will get my energy from that---- [Laughter.]
    But I do at least now watch what I eat and I watch my 
weight. People say to me now, boy, you look good. You look 
great for your age. I say, what does that mean? I say, I look 
great and feel great no matter what age I am because I do watch 
that and I know when I am getting a little heavy. Then that is 
when I exercise a little bit. But other than that, I try to 
just eat healthy and stay active and hopefully I will have a 
long life.
    The Chairman. Coach, let me just simply say that while we 
are a small committee up here, the Aging Committee is not the 
Finance Committee or the Appropriations Committee, and it is 
probably a small committee in terms of the U.S. Senate, it is a 
large committee in terms of the audience that it enjoys from 
senior citizens in this country, and so we hope today through 
C-SPAN there is a very large audience looking at you and 
learning from your example. We profoundly thank you for your 
service to our nation by your presence here today.
    Mr. Robinson. Well, Mr. Chairman, Senator Kohl, thank you 
for having me here today. It was my pleasure.
    Senator Kohl. Thank you, Mr. Robinson. Good luck this 
afternoon.
    Mr. Robinson. Thank you.
    Senator Kohl. Our second panelist is Ms. Barbara Bovbjerg, 
who is the director of Education, Workforce, and Income 
Security Issues for the Government Accountability Office. 
There, she oversees GAO's work on retirement income policy 
issues. Ms. Bovbjerg previously served as Assistant Director 
for Budget Issues at GAO and also worked for the District of 
Columbia's Budget Office and at the Urban Institute.
    Ms. Bovbjerg, we welcome you here today and we look forward 
to your testimony.

    STATEMENT OF BARBARA D. BOVBJERG, DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                     OFFICE, WASHINGTON, DC

    Ms. Bovbjerg. Thank you, Mr. Chairman, Senator Kohl. I am 
really thrilled to be here. It is an honor to be asked to speak 
on this topic, and it is a tremendous honor to be sitting at 
the same table just occupied by Mr. Robinson, who now I have 
learned is not only a towering figure in sport, but also very 
eloquent and a difficult act for me to follow.
    I am here to discuss the importance of helping older 
workers earn longer. Demographic trends pose serious fiscal and 
economic challenges to America in the 21st century and 
Americans who choose to work rather than fully retire may form 
part of the answer to ensuring a healthy economy in the future.
    Today, I would like to discuss the broad demographic and 
economic trends that underlie our concerns about the future, 
essentially why it may be important to encourage those who want 
to work to continue to do so. I also plan to provide an 
overview of the factors affecting older Americans' decision to 
work or to fully retire. My statement is based on prior GAO 
work on this topic, much of it carried out for this committee.
    First, the importance of earning longer. Older Americans 
are becoming a growing segment of the population. Today, the 
oldest members of the baby boom generation are nearing 
retirement age, and as this relatively large generation ages, 
they will create an increasingly gray America. At the same 
time, life expectancy is increasing. Whereas in 1940, men at 
age 65 could expect to live another 12 years, today, men age 65 
are living 16 more years, on average. Similarly, women reaching 
65 lived about 13 years in 1940. Today, they can expect to live 
another 19 years. While living longer is good news, make no 
mistake about it, most people are living longer in retirement 
rather than extending their working lives.
    A falling fertility rate is also a factor in our aging 
population. The fertility rate describes the ratio of the 
number of children born to the number of women of childbearing 
years. In the 1960's, the fertility rate was about three 
children per woman. Today, that rate has fallen to a little 
more than two children, and by 2030 will fall to 1.95. This 
trend is a major factor in the slowing growth of the U.S. labor 
force in the last decade and going forward. By 2025, labor 
force growth will be about a fifth what it is today.
    These trends will help increase the share of the American 
population age 65 and older from 12 percent in 2000 to almost 
20 percent in 2030. With relatively fewer people of traditional 
working age available to produce goods and services, our nation 
could experience slower economic growth and ultimately slower 
growth in living standards. These negative outcomes could 
transpire at the very time that budgetary pressures to finance 
Social Security and health care will be at their peak.
    There are various policy approaches for the Federal 
Government to consider in addressing these challenges. Whatever 
policies are to be adopted, acting relatively soon to address 
unsustainable growth in Federal health and retirement programs 
is important.
    Helping older Americans earn longer can also be part of an 
approach that could both improve the financial resources of 
older individuals and families while helping mitigate the 
economic and fiscal impacts on our nation.
    Let me turn now to older workers' retirement 
decisionmaking. Many factors reportedly influence workers in 
deciding whether to work or to retire. For example, a number of 
surveys suggest that some workers choose to remain in the labor 
force past retirement age simply because they enjoy working and 
like staying active, a point Mr. Robinson made so effectively. 
An individual may also decide to continue working until his or 
her spouse is ready to retire, or retire earlier because his or 
her spouse is retiring.
    Other factors in the worker retirement decision include an 
individual's health status, the availability of health 
insurance, and eligibility for early retirement benefits. Even 
when early retirement benefits are actuarially neutral, as in 
the Social Security program, the mere presence of such benefits 
can create an incentive to retire.
    Finally, the availability of suitable employment is a 
crucial element in deciding whether to continue working. 
Although surveys indicate that many older workers would like to 
partially retire, we have found that offering such flexible 
options is not a widespread employer practice.
    We currently have ongoing work that seeks to identify in 
more detail the elements of older worker retirement decisions 
with an eye to policy implications for the Federal Government.
    In conclusion, policies that encourage rather than 
discourage older people to continue working would benefit both 
the economy and individuals. Such policies might redefine 
retirement by encouraging more widespread availability of 
flexible employment and partial retirement arrangements and by 
removing incentives that induce workers to fully retire when 
they are, in fact, willing to work.
    This concludes my statement, Mr. Chairman, Senator Kohl, 
Senator Lincoln. Alicia Cackley is with me today. She is our 
assistant director for Retirement Income Policy Issues, and we 
welcome any questions that you and the committee might have. I 
would also like to ask that our written statement be submitted 
for the record.
    Senator Kohl. Without objection.
    [The prepared statement of Ms. Bovbjerg follows:]
    [GRAPHIC] [TIFF OMITTED] 23281.001
    
    [GRAPHIC] [TIFF OMITTED] 23281.002
    
    [GRAPHIC] [TIFF OMITTED] 23281.003
    
    [GRAPHIC] [TIFF OMITTED] 23281.004
    
    [GRAPHIC] [TIFF OMITTED] 23281.005
    
    [GRAPHIC] [TIFF OMITTED] 23281.006
    
    [GRAPHIC] [TIFF OMITTED] 23281.007
    
    [GRAPHIC] [TIFF OMITTED] 23281.008
    
    [GRAPHIC] [TIFF OMITTED] 23281.009
    
    [GRAPHIC] [TIFF OMITTED] 23281.010
    
    [GRAPHIC] [TIFF OMITTED] 23281.011
    
    [GRAPHIC] [TIFF OMITTED] 23281.012
    
    [GRAPHIC] [TIFF OMITTED] 23281.013
    
    [GRAPHIC] [TIFF OMITTED] 23281.014
    
    [GRAPHIC] [TIFF OMITTED] 23281.015
    
    [GRAPHIC] [TIFF OMITTED] 23281.016
    
    [GRAPHIC] [TIFF OMITTED] 23281.017
    
    Senator Kohl. Ms. Bovbjerg, is there any conceivable 
downside to what we are discussing this morning, which is the 
advisability of encouraging and promoting policies so that 
seniors will remain in the workforce?
    Ms. Bovbjerg. It is hard to see a downside to encouraging 
people to do something that they want to do. It is hard to see 
a downside to encouraging people to work when it will improve 
their retirement income prospects, when it will improve our 
economic prospects as a nation, and could improve our fiscal 
prospects, as well.
    I think that it is important in looking at particular 
solutions to look at the balance of the approach to assure that 
things are done to encourage people to work longer are not in 
some way having negative impact on people who cannot work 
longer.
    Senator Kohl. As you know, only about 13 percent of people 
over 65 today are actively participating in the workforce, so 
how do we get from here to there as soon as we will need to be 
getting there, which is in the next decade or two? Right now, 
as you know, the mindset in this country is that pretty much 
when you are 65, with exceptions, you are expected and you look 
forward, to retirement. What we are suggesting here today is 
that that is not really where we need to be heading in this 
country. So what kinds of ideas and thoughts and policies do we 
need to be pursuing out there to change this mindset, both on 
the part of employers and employees?
    Ms. Bovbjerg. I would suggest that we should move on a 
number of fronts. I do want to bring to your attention a 
recommendation that we made several years ago as part of some 
work we had done on this issue. In that work, we noticed that 
there are a number of Federal agencies that have roles in 
encouraging employment and working with employers, as well as 
addressing retirement rule issues, and we had recommended that 
the Department of Labor create a multi-agency a task force to 
consider the barriers to olders workers and the potential 
approaches in Federal policy, specifying what things can be 
done via regulation and what things would require statutory 
change, and to make recommendations.
    They have not acted on this recommendation as of yet. I am 
still hopeful. Some Federal agencies are responding on their 
own. The Internal Revenue Service is considering regulation 
that would make it easier for people to partially retire by 
taking retirement benefits in part, not in full, so they could 
work part-time and continue to get part of their retirement. 
These are not yet final.
    But I would suggest that because there are interactive 
effects, this is a policy area where we need to take a broader 
view than just within a single agency or only looking at ERISA 
rules, for example.
    Senator Kohl. I think it is true and very important that we 
need to consider the financial aspects of this whole issue of 
retirement at age 65. Until we do, I would guess that we are 
going to have a hard time increasing the percentage of people 
who stay in the workforce. It has to make sense financially for 
them to stay in the workforce, which is what you are 
suggesting, and it is very true.
    Ms. Bovbjerg. That is true, and I know that there is the 
hope that as we move through this demographic change, older 
workers will appear more attractive to employers as they begin 
to experience labor shortages. But there is, of course, no 
guarantee of that and there may be a policy role for the 
Federal Government in encouraging more interest on the part of 
employers, more flexibility in the way that we ask employers to 
manage their retirement programs, and more incentives for 
workers.
    Senator Kohl. Thank you. Mr. Smith?
    The Chairman. Thank you, Senator.
    Barbara, obviously, I think the statistics you have from 
GAO would say we will have a labor shortage in the future if 
everyone retires, and yet I am wondering if you are also seeing 
employers beginning to make changes to adjust to seniors 
transitioning from full employment perhaps to part-time or 
flex-time or are there things that you would recommend us to do 
legislatively.
    Ms. Bovbjerg. There are employers out there who are being 
very creative. I think that you may have one of those employers 
speaking to you today in the next panel. When we looked at 
employers in our earlier work on this issue however we found 
that such creativity is rare, or certainly not widespread. 
Employers are reluctant to be more flexible about bringing 
people back after they retire because of the concern about some 
of the pension rules that might affect tax qualification of 
their pension plans.
    We found more examples of this creativity among the public 
sector employers, where State and local governments, 
particularly school districts, were taking actions to try to 
bring workers back who had retired. For example, some 
government employers offered Defined Retirement Option Plans, 
or DROP plans where people can retire and then come back and 
work, and their retirement benefit is placed in an individual 
investment account for them while they are working. It is a 
complicated arrangement and is something that would be 
difficult to do within the confines of ERISA, and as you know, 
the State and local governments are not subject to ERISA.
    I am trying to say that there are models out there and I 
think it is important for us to consider how they might fit 
into a broader policy for the Federal Government.
    The Chairman. It is interesting. I think you have just 
identified for me, anyway, something that we may be able to do 
legislatively to give plans more flexibility so they don't lose 
their tax status, so that they can under defined benefit or 
defined contribution plans continue to allow people to work. So 
we will start putting something together, and any ideas that 
you have, we would certainly welcome those.
    Ms. Bovbjerg. I would be happy to work with you on that.
    Senator Kohl. Thank you, Senator Smith.
    Senator Lincoln.
    Senator Lincoln. First of all, I would like to thank my 
colleagues, the ranking member, Senator Kohl, and Chairman 
Smith, for holding this hearing. I think it is so important for 
us to look at ways to bring down the barriers that preclude our 
older citizens from being so actively involved in the 
workforce.
    We know we have such changing demographics. We know that we 
will experience a large increase in the number of older 
Americans who want to remain in the workforce. With all kinds 
of medical technology, we know that people are living longer 
and they are living more productive and a better quality of 
life as they age.
    I know from my own personal experience, my husband's 
grandmother, who is 107, and his father, who was a surgeon and 
worked pretty much up until he was about 71, I told my husband 
the other day, I said, ``I hope your second wife is tall, 
skinny, and gorgeous, because with those genes, I know you will 
outlive me.'' But he said, ``No, I still want to retire at 
55.'' I said, no way. No way.
    But we do have an issue here, I think, that has many 
aspects that we want to look at. One, and that is the ability 
to maintain the quality of life for these individuals, because 
without a doubt, I think anyone I know that is in the workforce 
over 65 will say that both the challenge and the mental 
stimulation is a huge part of maintaining their quality of 
life, both physically as well as mentally, in terms of really 
having that productive and that great quality of life that they 
feel like they have. So I think that is important.
    I think the other important aspect for us to explore is 
what a tremendous advantage it is for those particularly 
younger people who are in the workforce. I know I grew up in a 
very small town within walking distance of both sets of my 
grandparents and they had a tremendous role to play in my life, 
whether it was life skills or life's lessons or helping me with 
what I was going through at such a young age.
    I watched my children in a small public school here locally 
who get the benefit of several of the teachers' aides who are 
over 65, a retired head of the physics department who comes in 
and supplements the science program in the third grade. I mean, 
it is wonderful, not only what these people have to offer, but 
the way that they present it after a lifetime of experience in 
that field and what they share with the children in terms of 
building their confidence, giving them the kind of support that 
they need, as well as a background in what they can do with 
what they are learning, not that it is just something in a book 
that they have to learn, but where can they take that? Who can 
they become? What can they do with their lives?
    So I think there are so many multiple benefits of looking 
into being able to provide the wherewithal for our aging 
community to stay in the workforce and to not only benefit 
themselves, but to bring a great benefit to those that surround 
them.
    So I applaud our chairman and ranking member for bringing 
us to this point and having this discussion.
    I guess I have got a couple of questions. I do represent 
quite a rural State, and I think if there is anything that you 
can lend to specific issues regarding opportunities for older 
workers that is unique to rural areas. I know transportation is 
one big challenge that we face in rural America, particularly 
for our elderly, in getting them places. But maybe there are 
other things that you all know that I am not as fully aware of.
    Ms. Bovbjerg. Senator Lincoln, we have not done a rural-
urban--comparison in our work on this topic, but in some 
related work that might be of interest, we looked at one-stop 
centers operated under the Workforce Investment Act. One-stop 
center provide employment and training services to workers, 
including older workers, and the big change when WIA became law 
was that under the prior law, State funding for older workers 
was separate, done completely separately from other workers, 
and WIA combines both the services and the funding for workers 
of all ages.
    When we were looking at this to try to see if that made a 
difference in the kinds of services that older workers were 
receiving, one of the things we discovered is that the 
measurement of performance of these one-stop centers includes 
looking among other things, the rate of usage replacement for 
those the one-stops serve. If someone comes in unemployed and 
they want another job, what is their new wage compared to their 
old wage? This approach offers little incentive for one-stop to 
help someone who wants to partially retire, and so in our 
report we made a recommendation to the Department of Labor that 
they review performance measures, as well as other things out 
there in the one-stop centers that might disadvantage older 
workers who sign up for these services.
    But we have also seen that older workers, in fact, 
disproportionately receive services at the one-stop centers, so 
the one-stops are likely very important to local activity and 
helping people work. I am not sure if there is a difference in 
rural versus urban however.
    Senator Lincoln. Well, there usually is, because we have 
less resources oftentimes in rural areas to set up those kind 
of systems of one-stop, and sometimes they are harder to access 
for people that live out on a county road.
    Ms. Bovbjerg. Yes.
    Senator Lincoln. That is why I said the transportation, I 
know. It is a given. It is an issue and a challenge we face 
with everything in rural America. But there may be other 
things, and I will continue to try and explore that.
    I know for a fact, visiting with so many of our elderly out 
in the rural communities, is that oftentimes the work that they 
have during their working years is more physical. We know that 
from the standpoint of the debates we have been having over the 
course of the last several weeks on Social Security. So they 
are more likely to get disability, because lots of times, their 
jobs are more strenuous, more physical, and there is a great 
need.
    I heard from several of our groups in Arkansas and the AARP 
has a number of senior community service employment programs, 
and I know the AARP is going to be on the next panel, I 
believe, but just to give you an opportunity to respond, 
because you said that you had made several requests to the 
Department of Labor. I understand that the rules that govern 
the income in the latest Senior Community Service Employment 
Program Grants are keeping people who would have been eligible 
before from getting those services.
    For instance, under prior rules, the Social Security 
disability benefits were excluded from their income. I know in 
Hot Springs, AR, where we have one of our larger groups of 
seniors, the SCSEP office in Hot Springs is prevented in 
helping the older Americans from getting the services they need 
to return to the workforce. Maybe you can comment on the new 
income guidelines. I don't know if your request to the 
Department of Labor--I think those guidelines came out in July 
2004 from the Department of Labor, which were some pretty 
sweeping rule changes, I think that adversely affected a 
substantial number of older workers.
    Ms. Bovbjerg. We have not done any work on that issue. I do 
a lot of GAO's Social Security related work and we are very 
concerned about helping disabled beneficiaries who can work 
return to work and have been watching how SAA's return to work 
initiative are going. We have not done any work on the grants 
as of yet.
    Senator Lincoln. Well, if you have any input on that, we 
would certainly welcome your ideas on what is transpiring and 
how we solve that problem or how we mitigate some of the 
concerns that we are having in those offices out in our States 
of wanting to get some of these older workers back into the 
workforce, but seeing that, again, it becomes a disadvantage 
because, again, being able to provide the services and the 
assistance in rural areas does usually depend on the amount of 
resources they can find, whether it is through grants or what 
have you, and that is an important tool, particularly in rural 
America.
    Mr. Chairman, I have used my time, but I am proud to be 
here and thank you and thank our panelists for being here.
    Senator Kohl. Thank you, Senator Lincoln, and we thank you, 
Ms. Bovbjerg, for being with us today. Your testimony and your 
comments have been very useful.
    Ms. Bovbjerg. Thank you very much.
    Senator Kohl. We now turn to our third panel. Our first 
witness on this panel will be Ms. Kathlyn Peterson, a medical 
and surgical transcriptionist for SSM Health Care's St. Mary's 
Hospital and Medical Center in Madison, WI. Ms. Peterson has 
been a transcriptionist there for 45 years and currently 
participates in SSM's phased retirement program.
    We would also like to welcome Mr. Douglas Holbrook, who is 
the vice president and secretary/treasurer for the AARP Board 
of Directors. He serves as Chair of AARP's Board Audit and 
Finance Committee, as well as the Leadership Conference 
Planning Committee.
    Also testifying on this panel will be Ms. Valerie 
Paganelli, a senior retirement consultant from Watson Wyatt 
Worldwide. Ms. Paganelli has 17 years' experience working with 
both public and private sector clients. She leads Watson 
Wyatt's consulting research on the topic of phased retirement 
and is a national leader and published author of articles 
related to retirement, workforce development, and phased 
retirement.
    We have one additional panelist, who I will ask Senator 
Smith to introduce.
    The Chairman. Laurie Barr will be our additional panelist. 
Laurie serves as the assistant director of Human Resources for 
the Oregon Health & Science University. We welcome you, Laurie. 
Oregon Health & Science University is Oregon's only academic 
health and science center. Laurie has been with OHSU for 4\1/2\ 
years. She has over 12 years of experience in a variety of 
human resources positions, including senior-level experience in 
several health care organizations. She holds a Bachelor's 
degree in business with an emphasis on human resources 
management, a Master's degree in organizational management, has 
been awarded a Senior Professional in Human Resources 
certification by the Society for Human Resources Management.
    Thank you all for being here.
    Senator Kohl. Ms. Peterson, would you like to make your 
statement, please?

      STATEMENT OF KATHLYN PETERSON, MEDICAL AND SURGICAL 
         TRANSCRIPTIONIST, SSM HEALTH CARE, MADISON, WI

    Ms. Peterson. Yes. Mr. Chairman and Senator Kohl, I am 
happy to be here today to share my insight on phased 
retirement. Good morning. My name is Kathlyn Peterson and I am 
excited to be here today to share my story of phased 
retirement.
    When I was 50 years old, my husband and I moved to Madison, 
WI. Our children were grown, but I wasn't thinking about 
retirement. I had 30 years of experience as a medical and 
surgical transcriptionist and I wanted to work. So I 
interviewed with a hospital and a local clinic. But then I 
interviewed with St. Marys Hospital Medical Center, a member of 
SSM Health Care. St. Marys really impressed me with what they 
had to offer. They seemed to be excited to have me and wanted 
me to start right away.
    Fifteen years later, I am 65 years old and still enjoy 
working for St. Marys. I have a permanent part-time position in 
medical records as a medical/surgical transcriptionist. I work 
on Monday, Tuesday, and every other Saturday morning. Often, 
the hospital is extremely busy, so I also volunteer to work 
additional days to help out.
    I will be 66 in June, and my children often ask me, ``Mom, 
when are you going to retire?'' I don't really know. Maybe in a 
few years, maybe not. I am not in a hurry. I love where I work 
and I love what I do.
    I know that there are other things that I could be doing at 
my age. I could volunteer, do things at home, act more, 
``retire.'' But working part-time keeps me active and healthy 
and I get to continue working in the job that I love.
    At St. Marys, I can choose to work part-time and still 
receive my pension. This is very important to me. My father-in-
law died unexpectedly of a heart attack when he was 58 without 
enjoying any of his retirement benefits. My mother died at 65 
and didn't enjoy any of her retirement, either. Because St. 
Marys allows me to work part-time and still collect my pension, 
I am enjoying what I have worked so hard for right now.
    So is my husband. He works part-time at St. Marys as a lab 
courier. He will be 70 in the fall and also collects his 
pension while working. As of this week, he is officially 
retired, but planned to start working on an as-needed basis. 
But that will have to be postponed until next week, because he 
is with me here today in Washington, sitting right over there.
    In addition to the benefit of collecting my pension, I also 
enjoy full health insurance benefits at St. Marys. Employees 
only need to work 16 hours a week in order to receive full 
health benefits. Other facilities require at least 24, 32, even 
40 hours per week. This benefit is especially valuable to me 
because I survived kidney cancer 13 years ago. My medical 
history would make it extremely expensive for me to purchase 
insurance independently. Because of my insurance coverage 
through the hospital, I do not need supplemental insurance.
    In addition to pension and health benefits, I have found 
the hospital to be very flexible in their scheduling. If I 
can't work one of my regular days, I can switch to a day later 
in the week. Not all of my friends can say that. My friend, 
Jan, is a 66-year-old R.N. with a local physician group. It is 
hard for her to switch her days. Not only is her job not as 
flexible, she cannot draw her pension until she fully retires.
    But perhaps the most important benefit is the personal 
satisfaction of knowing that I am making a difference. 
Experienced transcriptionists are hard to find and there are 
always new things to learn--names of new drugs, new 
terminology. It takes a while to become established. So I know 
that my contribution of 45 years of experience really helps the 
hospital.
    But that is what older workers bring to the table. They 
bring experience. They are also dependable, reliable, and 
loyal.
    St. Marys and SSM Health Care want the best employees, 
regardless of their age, so they bend over backwards to work 
with us. As older employees, we are given choices about our 
pension, hours, and medical benefits. It is a great 
environment. We feel valued and appreciated.
    But it is not just the employees and the hospital who 
benefit from this relationship. Most importantly, it is the 
patients who benefit. Patients have the happiest, most 
experienced staff caring for them. That is why we are here, 
because our patients deserve the best.
    I am proud of the exceptional care that we provide and the 
honors we have received, including becoming the first health 
care system to be recognized with the Malcolm Baldridge 
National Quality Award.
    Thank you for allowing me to be here today to share my 
insight.
    [The prepared statement of Kathlyn Peterson follows:]
    [GRAPHIC] [TIFF OMITTED] 23281.018
    
    [GRAPHIC] [TIFF OMITTED] 23281.019
    
    Senator Kohl. Thank you, Ms. Peterson.
    Ms. Barr.

     STATEMENT OF LAURIE BARR, ASSISTANT DIRECTOR OF HUMAN 
 RESOURCES, OREGON HEALTH AND SCIENCE UNIVERSITY, PORTLAND, OR

    Ms. Barr. Good morning, Chairman Smith, Senator Kohl, and 
Senator Lincoln. My name is Laurie Barr and I am the assistant 
director of Human Resources for Oregon Health & Science 
University. Thank you for the opportunity to be here before 
this committee to discuss OHSU's best practices for employing 
older workers.
    Oregon Health & Science University is the State's only 
health and research university and only academic health center. 
We have four distinct missions of patient care, teaching, 
research, and community outreach. As one of the State's largest 
employers, our workforce is comprised of more than 11,000 
employees.
    OHSU is proud of its commitment to a diversified workforce, 
including diversity in age. We recognize that the wisdom and 
experience older generation workers bring to our organization 
is invaluable. As an institution of learning, we rely on our 
long-term employees to provide historical insight and 
information to many other workers at OHSU and they benefit 
greatly from the wealth of experience our older workers 
possess.
    There are three best practices that I would like to 
highlight for you today. The first is flexible work 
arrangements. The size of our workforce combined with a wide 
variety of jobs and required skill sets allows for flexible 
work arrangements that many smaller organizations may not be 
able to accommodate. There are many job opportunities at OHSU 
that are part-time or on-call, allowing for a variety of work 
schedules that meet individual needs.
    In addition, some older OHSU workers ready to move into the 
retirement stage of their lives may have the opportunity to 
ease into it. We have quite a few long-term employees that have 
gradually cut back schedules over the course of several years. 
This slow transition benefits both the employee and the 
employer by keeping experienced workers on staff and allowing 
them to move toward retirement more gradually than in many 
organizations.
    As you know, our country is experiencing a shortage in many 
health care occupations, and OHSU is no exception to that. 
Therefore, it is critical that we retain our health care 
workers. Many health care jobs are very physically demanding, 
which for an older worker can be problematic. At OHSU, there 
are other options in those situations. An older nurse, for 
example, who may not be able to continue to keep up with the 
physical demands of inpatient nursing may have other full- or 
part-time opportunities at OHSU to continue to use his or her 
nursing skills. That could mean moving to a slightly less 
demanding outpatient nursing position or something in nursing 
education, telephone triage, case management, or quality 
review, for example.
    As an employer, allowing for flexible work arrangements 
means better retention of older workers.
    The second is our generous retirement plan. A substantial 
benefit for older workers at OHSU is the retirement plan. OHSU 
contributes up to 12 percent of an employee's annual income 
into a retirement plan upon eligibility. OHSU offers two 
retirement plan options, a defined benefit plan and a defined 
contribution plan. For the University Pension Plan, which is 
our defined contribution plan, once workers reach the age of 
50, they become 100 percent vested in their retirement 
contributions regardless of their length of service. OHSU also 
offers two voluntary savings programs to help employees 
supplement their retirement plan and Social Security benefits.
    These benefits are not only powerful recruitment tools in 
attracting new older workers to OHSU, they serve us in our 
retention efforts, as well. A stable, substantial pension 
provides these employees with an additional sense of financial 
security as they move closer to their retirement years.
    The third item is shared knowledge of older workers. Almost 
30 percent of OHSU's current workforce is comprised of workers 
age 50 or older. I am particularly pleased to report to you 
that currently, 11 of our employees are over the age of 80, and 
two of those are over 90 years old. Most of these individuals 
are working on a part-time basis, although three of them, 
believe it or not, are still full-time. This demonstrates a 
huge commitment to their work and to OHSU.
    Nine of these 11 individuals serve in professor or adjunct 
professor positions and several of them continue to do 
research. Well past traditional retirement age, these 
individuals continue to share their knowledge with future 
doctors, nurses, and scientists. OHSU is proud to have them as 
continuing productive members of our workforce.
    In conclusion, as a society, we must be more creative about 
accommodating older workers, especially as the baby boom 
generation begins to think about retirement. More employers 
need to step forward and take proactive steps to assist older 
workers in the workplace. Retirement isn't what it used to be, 
and as an employer, OHSU recognizes this. We value the 
contributions, experience, and wisdom of our older workers. We 
truly hope that in the future, more and more employees will 
continue to work past their normal retirement date. It is good 
for us and it is good for them.
    Thank you for inviting us to testify today.
    [The prepared statement of Laurie Barr follows:]
    [GRAPHIC] [TIFF OMITTED] 23281.020
    
    [GRAPHIC] [TIFF OMITTED] 23281.021
    
    Senator Kohl. Thank you very much. Mr. Holbrook.

  STATEMENT OF DOUGLAS HOLBROOK, VICE PRESIDENT AND SECRETARY/
       TREASURER, AARP BOARD OF DIRECTORS, WASHINGTON, DC

    Mr. Holbrook. Mr. Chairman and Senator Kohl, I am Doug 
Holbrook, a member of AARP's Board of Directors. I would like 
to thank you for convening this hearing to highlight the issues 
facing older workers.
    AARP is the largest organization representing the interests 
of Americans age 50 and older and their families. About half of 
AARP's members are working either full-time or part-time. All 
of our working members, as well as those who want to work, have 
a vital interest in being able to remain on the job and to 
contribute to society without facing age discrimination.
    Protecting and expanding the rights and opportunities for 
older workers was a founding principle of AARP. We work to 
improve employment conditions and policies for all workers 
through our legislative and regulatory advocacy. Through AARP's 
program initiatives, we collaborate with employers to increase 
job opportunities for those age 55 and over and we conduct 
research to help answer the need for knowledge about how work 
issues affect employees and employers and the workplace.
    AARP advocates for improvements in the Workplace Investment 
Act of 1998. Specifically, we have urged inclusion of target 
training requirements to serve currently employed older 
workers, ensure that one-stop centers have adequate staff and 
equipment, help employers prepare for an older workforce, and 
encourage education and training for older workers.
    Other efforts center on phased retirement. Phased 
retirement programs could ease the projected labor shortage as 
well as expand work options for older workers. Employers could 
benefit from programs that help retain experienced workers.
    AARP recently commented on proposed IRS regulations that 
would allow defined benefit pensions to pay partial retirement 
to eligible employees to reduce their work schedules. AARP also 
released a survey, ``Attitudes of Individuals 50 and Older 
Toward Phased Retirement'' in March. The survey gauged 
attitudes to phased retirement. Nineteen percent of the 
respondents have heard the term ``phased retirement'' and of 
those, nearly 38 percent said they would be interested in 
participating in such a program. Of interested workers, 78 
percent expected that phased retirement would motivate them to 
work past their expected retirement. Forty-six percent of 
interested workers said they would like to start phased 
retirement between the ages of 60 and 64, and 53 percent of 
employees would like to work 12 fewer hours, on average, if 
offered phased retirement.
    AARP believes that barriers to implementing phased 
retirement programs should be eliminated. However, these 
programs must be designed to protect workers' benefits and 
preserve their long-term retirement security while recognizing 
the legitimate needs of employers. Businesses will need to do 
more to attract and retain older workers and help ease likely 
future labor shortages.
    Five years ago, AARP established an annual award program to 
recognize employers who already had innovative practices, 
AARP's ``Best Employers For Workers Over 50''. These employers 
have formal and informal arrangements that allow older workers 
flexibility, such as job sharing and compressed work weeks. 
AARP's ``Best Employers For Workers Over 50'' continues to 
increase in visibility. Follow-up activities include reports, 
``Staying Ahead of the Curve 2004,'' a compilation of best 
practices among 2002-2004 winners; a national conference that 
will center on business solutions for an aging society; and a 
report that will address the value workers 45 and older bring 
to American business.
    AARP's Workforce Initiative is a program targeted to both 
employer and employees. It grew out of a partnership between 
AARP and Home Depot to attract and retain mature workers. The 
featured employer portion of the initiative builds on the 
partnership by educating businesses on the value of their 
existing older workforce and recruiting mature workers.
    Last year, AARP released a survey to the 1998 ``Baby 
Boomers Envision Their Retirement.'' AARP looked at how this 
massive generation has progressed in planning for retirement. 
Similar to the 1998 survey's, 80 percent, 79 percent of boomers 
plan to work in some capacity during the retirement years. 
Thirty percent of the boomers plan to work for enjoyment, while 
25 percent plan to work for the income.
    In answer to the anticipated growth of the aging population 
as well as greater demand for older workers, AARP has taken on 
the challenge of helping to create solutions to meet the needs 
of the workforce and older employees. What we have seen is that 
employers are interested in learning about and implementing 
policies that attract older workers. Employers who adapt their 
workplace will likely find themselves better positioned to 
harvest the benefits of a potential resource.
    Congress' challenge is to establish policies that recognize 
the innovation of employers who have successfully attracted 
older employees to work for them. Legislation to make job 
training programs more inclusive and to expand phased 
retirement are two good examples. Understanding the needs of 
older workers will help Congress develop answers to create a 
workplace of choice for them.
    Mr. Chairman, I would ask that our written testimony be 
included in the record.
    Senator Kohl. Without objection. Thank you.
    [The prepared statement of Mr. Holbrook follows:]
    [GRAPHIC] [TIFF OMITTED] 23281.022
    
    [GRAPHIC] [TIFF OMITTED] 23281.023
    
    [GRAPHIC] [TIFF OMITTED] 23281.024
    
    [GRAPHIC] [TIFF OMITTED] 23281.025
    
    [GRAPHIC] [TIFF OMITTED] 23281.026
    
    [GRAPHIC] [TIFF OMITTED] 23281.027
    
    [GRAPHIC] [TIFF OMITTED] 23281.028
    
    [GRAPHIC] [TIFF OMITTED] 23281.029
    
    [GRAPHIC] [TIFF OMITTED] 23281.030
    
    Senator Kohl. Ms. Paganelli.

 STATEMENT OF VALERIE PAGANELLI, SENIOR RETIREMENT CONSULTANT, 
              WATSON WYATT WORLDWIDE, SEATTLE, WA

    Ms. Paganelli. Good morning, Mr. Chairman and distinguished 
committee members. I am happy to be here and pleased that we 
were invited to participate in the testimony today.
    My name is Valerie Paganelli and I am a senior retirement 
consultant with Watson Wyatt Worldwide, a global human capital 
consulting firm that is grounded in the most extensive research 
in our business, including phased retirement. We believe phased 
retirement programs can encourage older workers to remain in 
the workforce longer.
    Employers face varying levels of urgency around the need to 
extend the working years of their older workers. They have a 
desire to engage and retain older workers who contribute to 
ongoing business success. Many employers are considering 
alternate approaches to traditional retirement. However, 
implementation of formal phased retirement programs pose 
considerable challenges and risks. As a result, phased 
retirement is currently primarily shaped by individuals who 
retire from one organization and return to work for another 
organization, or who rejoin their pension-paying employer on a 
consulting or contract basis.
    Nearly one-fourth of current phased retirees expect to work 
past age 65. Another 20 percent expect to work indefinitely. 
One-third of surveyed workers over age 50 are willing to work 
longer, and voluntary phased retirees are nearly four times 
more likely to continue working with their current employer if 
offered informal phased retirement programs and other work life 
benefits. Informal programs include flexible work arrangements, 
reduced work hours, less job responsibility, and the 
opportunity to try something new.
    In particular, women may extend their careers by 21 months 
when phased retirement arrangements are available, and men may 
extend their careers by 8 months when elder care services are 
available. Yet only 40 percent of employers currently offer 
flexible work arrangements. Only 27 percent offer elder care 
services. Only 16 percent offer phased retirement.
    Continued wages from active employment will become more and 
more important for individual financial security. A modest 28 
percent of voluntary phasers are in need of the added income; 
but for unplanned phasers, this percentage increases to 50 
percent. Thirty-eight percent who voluntarily left their career 
employer are receiving a monthly pension.
    The Social Security debate, escalating medical care costs, 
the reduction of workers covered by defined benefit pension 
plans, and the potentially less than adequate savings patterns 
in the U.S. make for unstable financial resource for many 
individuals.
    That said, enjoyment is currently the most common reason 
voluntary phasers continue to work today, indicated by 42 
percent of those surveyed. Phasers who work primarily for 
enjoyment are more likely to experience higher job 
satisfaction, enjoy good health, and receive higher pay raises 
than their peers.
    The availability of more formal phased retirement programs 
involving pension and health care benefits is limited. One 
significant barrier that has been mentioned today is the 
restriction to pay pension benefits to actively working 
employees prior to their normal retirement age. The IRS 
recently proposed new guidance that would change this rule. 
However, as currently drafted, very few employers are likely to 
adopt them because they lack flexibility and involve 
significant administrative burdens.
    Today, the availability of retiree health benefits may have 
the most influence on individual retirement decisions. One 
study demonstrated that a near 70 percent increase in the 
propensity for early retirement when retiree health benefits 
were provided. Rising medical benefit expenses have prompted 
most employers to scale back or alter the delivery of these 
benefits, leaving many individuals burdened with financing 
their own health care costs and necessitating continued 
employment.
    Despite these and other barriers, many employers are 
actively exploring phased retirement arrangements. They are 
doing so by rehiring their own bona fide retirees as part-time 
employees or independent contractors. They are targeting their 
recruiting efforts at the retiree ranks in the labor market. 
They are reviewing their existing benefit programs to make them 
more phased retirement friendly. They are using direct 
compensation and incentives, health care subsidies, and work 
life benefits. They are diligently quantifying the costs of 
retaining retirement-eligible workers as compared to recruiting 
a dwindling supply of replacement workers. Deep-rooted in the 
organization, they are adapting their organizational culture, 
succession planning, and training to support a more broad-based 
phased retirement program in the future.
    We would like to persuade policymakers such as you to 
encourage the ongoing collaboration of appropriate governmental 
entities. We would like you to endorse defined benefit plans 
and provide for phased retirement distributions. We would like 
you to help establish a framework for Americans to understand 
and practice successful financial planning and to continue 
conversations with employers, employees, and their 
representatives.
    In closing, Watson Wyatt believes the United States faces 
unprecedented retirement policy questions and that it is 
imperative for our nation to allow for the flexible unfolding 
of alternative profiles of retirement. Watson Wyatt also 
welcomes the continued opportunity to contribute to your 
discussions.
    We thank you for holding this hearing today. I am pleased 
to have gotten my mitt signed by Mr. Robinson for future use, 
and am happy to address any questions you may have.
    Senator Kohl. Thank you for your statement.
    [The prepared statement of Ms. Paganelli follows:]
    [GRAPHIC] [TIFF OMITTED] 23281.031
    
    [GRAPHIC] [TIFF OMITTED] 23281.032
    
    [GRAPHIC] [TIFF OMITTED] 23281.033
    
    [GRAPHIC] [TIFF OMITTED] 23281.034
    
    [GRAPHIC] [TIFF OMITTED] 23281.035
    
    [GRAPHIC] [TIFF OMITTED] 23281.036
    
    Senator Kohl. Ms. Peterson, why do you choose to stay in 
the workforce rather than become a full-time retiree? In other 
words, what do you get out of your arrangement that you would 
not get otherwise?
    Ms. Peterson. I get personal satisfaction. I enjoy my work. 
I have been doing this for 45 years. I have never changed my 
career because I love my career. It is nice I can work part-
time, collect my pension, and I get full health benefits, which 
I feel is very important for me.
    Senator Kohl. Good. You are a medical/surgical 
transcriptionist?
    Ms. Peterson. Right.
    Senator Kohl. Will you explain that?
    Ms. Peterson. Well, the doctors dictate and I type what 
they say, and to try to figure out sometimes what they say is 
sometimes hard. They are mumblers or they are foreigners, but 
we try to do our best.
    Senator Kohl. Good. Mr. Holbrook, it is our understanding 
that there are companies that are reluctant to keep older 
workers because they feel that the health care costs may rise. 
Is that an issue that needs to be dealt with?
    Mr. Holbrook. That is a problem. I would just like to point 
out, before I answer your question, Senator Kohl, that I was 
listening to the testimony and it became very personal for me. 
Starting Monday, at 71, I will begin a full-time job and am 
looking forward to it.
    We have not compared the health care costs of older workers 
with those of workers younger than age 65, and I am not 
familiar with other work which has been done. However, it would 
seem to me that it could cost more for older workers. But on 
the other hand, it would depend on the individual case. It 
would certainly be lower in regard to workers with a number of 
beneficiaries that would be covered by a policy.
    So, therefore, we have not done really a cost analysis of 
this, but it would seem to me that the cost would be something 
that would have to be considered. I don't think it should be 
something that would prevent the hiring of older workers, but I 
think it would be something that we should look at for the 
future in order to deal with that problem.
    Senator Kohl. Thank you. Ms. Paganelli, it is clear that 
phased retirement could help older Americans work longer, but 
it also seems to me we need to be doing it carefully and making 
sure that phased retirement achieves its goal of increasing 
work. What pitfalls, or unintended consequences, should we 
watch out for as we address that situation?
    Ms. Paganelli. The employers that we are in dialog with do 
have, as I mentioned, varying levels of urgency. For those 
organizations with the most acute urgency, they are looking for 
flexibility and the ability to target their phased retirement 
arrangements on the critical skill employees that drive the 
success of their organization. They would very much prefer not 
to cast a broad net that includes all of their retirement-
eligible population if there is not a desirable business need.
    I would also say that phased retirement is a very, very 
individual conversation within every organization as to the 
needs they have due to the underlying demographics of their 
organization, and so they are not looking for mandates on a 
policy basis, they are looking for flexibility, and are trying 
to avoid undue administrative burdens that limit their ability 
to offer phased retirement programs.
    Senator Kohl. What do you find to be the problems in the 
caregiving efforts of people who still want to work? Do we need 
to do more, or encourage companies to help employees find 
caregiving for their elderly?
    Ms. Paganelli. I think there is an enormous amount of 
opportunity in this area and that the opportunity will continue 
to grow as our workforce and population ages. There are 
statistics that show that individuals do retire earlier than 
they might otherwise when elder care is required of them as 
individuals, and so services that can help support them whether 
they be the opportunity for social workers to advise them or 
services that help them locate the care that fits their needs, 
can only help to balance the opportunity to stay in the 
workforce while responding to what I think we all believe is a 
higher priority in caring for our loved ones.
    Senator Kohl. Thank you. Senator Smith.
    The Chairman. Thanks, Senator Kohl.
    Ms. Paganelli, with respect to those companies that are 
currently providing phased retirement programs, at what ages 
are employees starting to ask their employer about phasing down 
their hours?
    Ms. Paganelli. I would say again it varies depending on the 
organization depending on how hard those individuals have been 
asked to work, depending upon what underlying benefits are 
available and the underlying messages and opportunities.
    Some organizations have a working cohort as early as age 55 
who have opportunity to receive their pension benefits on a 
subsidized basis, have a well-balanced personal savings and 
401(k) and have access to medical coverage. So for them, they 
are not looking at the income dimension, and so employers are 
having to tap into the enjoyment factor to keep those 
individuals on their rolls.
    I would say other organizations, who maybe only sponsor a 
defined contribution plan, don't have a built-in incentive for 
their employees to retire, and therefore the decision to retire 
becomes very individual on an employee-by-employee basis. These 
organizations are trying to get more in touch with the thinking 
around retirement and the savings patterns and the underlying 
adequacy that individuals have.
    So I would say as early as 55 in many organizations and 
into the 60's for others.
    The Chairman. From your research, what type of phase-down 
is most common? Is it part-time, 50 percent work? What are you 
finding?
    Ms. Paganelli. It is the reduced schedule, and the 
availability for flexibility.
    The Chairman. Doug Holbrook, many American companies have 
best practices with respect to recruiting and retaining older 
workers. In fact, I believe AARP recognizes some of these 
organizations each year with your Best Employers For Workers 
Over 50 awards. Could you describe for us some of the practices 
that have been most effective in terms of retaining and 
recruiting older workers?
    Mr. Holbrook. I think the flexible work hours available to 
the workers certainly adds to it. I think the benefits that 
they receive are important. I think their desire to work and 
the fact that the company is receptive to having an older 
workers employed within their facility is also very helpful.
    We are very proud of the program that we have in that 
category. We have tremendous activity from companies who ask to 
be considered for the award, and we are very proud of that. It 
is gaining in momentum, by the way, because more and more 
companies are saying, we want to be recognized for what we are 
doing, and they are doing a fantastic job.
    For example, in our partnership with Home Depot, we have 
already brought into the workforce of about 3,200 people. That 
is a large number of employees in a short period of time.
    But it covers a whole range of issues. I think the company 
has to be receptive to hiring, and also they have to understand 
that they have a need. They are getting a real bargain when 
they have an older worker, who certainly brings to the table a 
lot of information, a lot of talent, and a lot of ability to do 
great work for the company.
    The Chairman. This Oregon Senator is very proud that Oregon 
Health & Science University received one of those awards.
    Mr. Holbrook. Yes.
    The Chairman. Laurie, would you encourage other 
organizations to adopt the practices that you have helped to 
lead?
    Ms. Barr. I absolutely would. I mean, it really--it truly 
does benefit employers as well as the individual employees, and 
it is a win-win.
    The Chairman. Well, obviously there is a nursing shortage 
in this country and probably necessity created the interest, 
but no doubt just the skill of older workers in health care 
surely must have also incentivized OHSU to reach out. Has 
interest grown among your employees in these kind of incentives 
to stay?
    Ms. Barr. I think so. To be honest with you, it is 
something that we promote as an employer and not specific to 
older workers, but just to the fact that we have a large 
variety in terms of our workforce demographics and flexibility 
and generous benefits benefit not only older workers, but all 
kinds of workers, those that are new moms, those that are 
single parents, those that are new to the workforce. So we 
really try to encourage that within our organization, to 
recognize that everyone is at different points in their life 
and flexibility benefits everyone.
    The Chairman. Have you offered any specific options for 
older employees in the past to take advantage of it?
    Ms. Barr. Not specific to older employees, yes.
    The Chairman. Well, thank you. Kathlyn, I have no questions 
for you but a big thanks. We appreciate your being here.
    Ms. Peterson. Thank you.
    Senator Kohl. We thank you very much for being here. It 
seems to me we have learned an awful lot about the new 
demographics that we are facing, and the advisability and also 
the great potential benefits of encouraging and promoting 
policies that will increase the number of people working past 
traditional retirement ages not only full-time but also part-
time. This is an issue and a problem that we need to face as a 
society, because there will be the need for large increases in 
the workforce for which we are not presently prepared.
    I think we have also come to understand that we need to 
change some of our policies with respect to health care and 
pension programs so that it is conducive for people to stay in 
the workforce, and as Senator Smith pointed out, this is 
something that we can work on legislatively here and that is 
what we intend to do. So in that respect, this hearing has been 
most beneficial and your participation has advanced the cause, 
and we much appreciate your being here.
    Senator Smith.
    The Chairman. Thank you, Senator Kohl. We are adjourned.
    Senator Kohl. Thank you very much.
    [Whereupon, at 11:44 a.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Prepared Statement of Senator Larry Craig

    Mr. Chairman, I'd like to thank the Ranking Member and you 
for holding this hearing.
    A saying coined in recent years goes, ``Demographics are 
destiny.'' In some respects, our destiny will be handed to us 
by demographics. To a significant degree, we already know what 
that landscape will look like. In other, very important ways, 
our destiny will depend on how wisely we plan for and greet the 
future, as individuals and as a society.
    The destiny of demographics and the destiny of our 
determination will intersect at many, different points. One of 
the most important areas of intersection is the subject of 
today's hearing: The participation of an older population in 
the paid work force.
    This is a subject that will touch, directly or indirectly, 
on the quality of life and prosperity of all Americans. It also 
will help shape the future of Social Security, Medicare, 
Medicaid, and other society-wide institutions.
    We know with certainty what our nation's available, native-
born, work force will look like for the next generation. All 
those workers have already been born. Thanks to the science of 
demographics, we also predict with relative confidence what the 
native-born population available for work will look like over 
the next lifetime. That's why the Government Accountability 
Office, Congressional Budget Office, Social Security Actuaries, 
and others, make 75-year projections.
    What we don't know, and need to consider, includes how, for 
how long, and in what jobs, that work force will be working.
    The good news is, Americans are living longer and healthier 
lives. Many older Americans want to continue working. Most 
members of the ``baby boom'' generation expect to work 
productively well into their ``golden years.''
    We need to keep in mind how diverse and differently 
situated our population is. We need to keep in mind the needs 
and circumstances of those who can and cannot work, those who 
want to or have to continue working, and changes in technology 
and the economy.
    For those who want to work or need to work, we need to 
remove impediments. We need to make sure there are appropriate 
incentives and rewards.
    On both the individual level and the national economic 
level, the idea of ``phased retirement'' holds out great 
promise of being a positive means of transition. However, in 
the tax code, and often in the company culture, there are some 
major obstacles to this alternative.
    Over the next decade, experts tell us our nation faces a 
labor shortage of 10 to 20 million workers. Some of that 
shortfall is likely to be met by in-migration. Some, 
theoretically, could be relieved by increased productivity. 
However, there is no substitute for the valuable contributions 
of an experienced, reliable work force of older Americans. For 
our economy to meet its maximum potential, more of these 
workers will have to be accommodated in the work force.
    Almost two years ago, the Aging Committee held a forum on 
this very subject, moderated by one of today's witnesses, Ms. 
Barbara Bovbjerg of GAO. I'm pleased the Committee maintains 
its interest in this important area and join my Chairman and 
Ranking Member in welcoming all the witnesses.
[GRAPHIC] [TIFF OMITTED] 23281.037

[GRAPHIC] [TIFF OMITTED] 23281.038

[GRAPHIC] [TIFF OMITTED] 23281.039

[GRAPHIC] [TIFF OMITTED] 23281.040

[GRAPHIC] [TIFF OMITTED] 23281.041

[GRAPHIC] [TIFF OMITTED] 23281.042

[GRAPHIC] [TIFF OMITTED] 23281.043

[GRAPHIC] [TIFF OMITTED] 23281.044

[GRAPHIC] [TIFF OMITTED] 23281.045

[GRAPHIC] [TIFF OMITTED] 23281.046

[GRAPHIC] [TIFF OMITTED] 23281.047

[GRAPHIC] [TIFF OMITTED] 23281.048

[GRAPHIC] [TIFF OMITTED] 23281.049

[GRAPHIC] [TIFF OMITTED] 23281.050

[GRAPHIC] [TIFF OMITTED] 23281.051

[GRAPHIC] [TIFF OMITTED] 23281.052

[GRAPHIC] [TIFF OMITTED] 23281.053

[GRAPHIC] [TIFF OMITTED] 23281.054

[GRAPHIC] [TIFF OMITTED] 23281.055

[GRAPHIC] [TIFF OMITTED] 23281.056

[GRAPHIC] [TIFF OMITTED] 23281.057

[GRAPHIC] [TIFF OMITTED] 23281.058

[GRAPHIC] [TIFF OMITTED] 23281.059

[GRAPHIC] [TIFF OMITTED] 23281.060

[GRAPHIC] [TIFF OMITTED] 23281.061

[GRAPHIC] [TIFF OMITTED] 23281.062

[GRAPHIC] [TIFF OMITTED] 23281.063

[GRAPHIC] [TIFF OMITTED] 23281.064

[GRAPHIC] [TIFF OMITTED] 23281.065

                                 <all>

</pre></body></html>
